APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Summary Order in the United States
Court of Appeals for the Second Circuit
(January 24, 2020) . . . . . . . . . . . . App. 1
Appendix B Order Adopting the Magistrate’s
Report and Recommendations and
Denying Motion for Sanctions in the
United States District Court for the
Eastern District of New York.
(September 30, 2018) . . . . . . . . . . App. 8
Appendix C M a g i s t r a t e ’ s
Report and
Recommendation on Defendants’
Motion for Sanctions in the United
States District Court for the Eastern
District of New York
(September 11, 2018) . . . . . . . . . App. 15
Appendix D Order in the United States Court of
Appeals for the Second Circuit
(December 8, 2014) . . . . . . . . . . . App. 43

App. 1

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
18-3472
[Filed January 24, 2020]
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY
1, 2007, IS PERMITTED AND IS GOVERNED BY
FEDERAL RULE OF APPELLATE PROCEDURE 32.1
AND THIS COURT’S LOCAL RULE 32.1.1. WHEN
CITING A SUMMARY ORDER IN A DOCUMENT
FILED WITH THIS COURT, A PARTY MUST CITE
EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC DATABASE (WITH THE NOTATION
“SUMMARY ORDER”). A PARTY CITING A
SUMMARY ORDER MUST SERVE A COPY OF IT ON
ANY PARTY NOT REPRESENTED BY COUNSEL.
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 24th day of January,
two thousand twenty.

App. 2
PRESENT: RALPH K. WINTER,
PETER W. HALL,
Circuit Judges,
DENISE COTE,*
District Judge.
____________________________________
Claudia Gayle, Individually, On
)
Behalf of All Others Similarly
)
Situated and as Class Representative, )
Aline Antenor, Anne C. DePasquale, )
Annabel Llewellyn-Henry, Eva Myers- )
Granger, Lindon Morrison, Natalie
)
Rodriguez, Jacqueline Ward, Dupont )
Bayas, Carol P. Clunie, Ramdeo
)
Chankar Singh, Christaline Pierre,
)
Lemonia Smith, Barbara Tull, Henrick)
Ledain, Merika Paris, Edith Mukardi, )
Martha Ogun Jance, Merlyn
)
Patterson, Alexander Gumbs, Serojnie )
Bhog, Genevieve Barbot, Carole
)
Moore, Raquel Francis, Marie Michelle)
Gervil, Nadette Miller, Paulette
)
Miller, Bendy Pierre-Joseph, Rose)
Marie Zephirin, Sulaiman Ali-El,
)
Debbie Ann Bromfield, Rebecca Pile, )
Maria Garcia Shands, Angela Collins, )
Brenda Lewis, Soucianne Querette,
)
Sussan Ajiboye, Jane Burke Hylton, )
Willie Evans, Pauline Gray, Eviarna )
Toussaint, Geraldine Joazard,
)

*

Judge Denise Cote, of the United States District Court for the
Southern District of New York, sitting by designation.

App. 3
Niseekah Y. Evans, Getty Rocourt,
Catherine Modeste, Marguerite L.
Bhola, Yolanda Robinson, Karlifa
Small, Joan-Ann R. Johnson, Lena
Thompson, Mary A. Davis, Nathalie
Francois, Anthony Headlam, David
Edward Levy, Maud Samedi, Bernice
Sankar, Marlene Hyman,
Plaintiffs-Appellees,

)
)
)
)
)
)
)
)
)
)
v.
)
)
Harry’s Nurses Registry, Harry
)
Dorvilier,
)
)
Defendants-Appellants.^ )
)
___________________________________ )
For Appellant: M ICHAEL C ONFUSIONE , Hegge &
Confusione, LLC, Mullica Hill, New
Jersey.
For Appellee:

JONATHAN A. BERNSTEIN, Meenan &
Associates, LLC, New York, New
York.

Appeal from an order of the United States District
Court for the Eastern District of New York (Garaufis,
J.).

The Clerk of Court is respectfully requested to amend the
caption as stated above.

^

App. 4
SUMMARY ORDER
UPON DUE CONSIDERATION, IT IS HEREBY
ORDERED, ADJUDGED, AND DECREED that the
order of the district court is AFFIRMED.
Harry Dorvilier and Harry’s Nurses Registry appeal
from an order of the United States District Court for
the Eastern District of New York (Garaufis, J.) dated
September 30, 2018, denying Appellants’ motion for
sanctions against plaintiffs’ counsel. We assume the
parties’ familiarity with the underlying facts, the
record of prior proceedings, and the arguments on
appeal, which we reference only as necessary to explain
our decision to affirm.
I.
In 2007, plaintiffs sued defendants under the Fair
Labor Standards Act (“FLSA”), seeking unpaid
overtime pay and attorneys’ fees. The district court
granted plaintiffs’ motion for summary judgment and
entered judgments in favor of the plaintiffs for unpaid
wages and liquidated damages and for attorneys’ fees.
Defendants-Appellants appealed, and we affirmed the
judgment in Gayle v. Harry’s Nurses Registry, Inc., 594
F. App’x 714 (2d Cir. 2014).
In September 2017, Appellants moved for sanctions
against plaintiffs’ counsel, arguing that counsel had not
properly accounted for the monies collected in
satisfaction of the judgments and had collected more
than he was entitled to in attorneys’ fees. Appellants
specifically contended that plaintiffs’ counsel “‘double
dipped’ by charging his clients for contingency fees and
also charging those same fees over to [Appellants]

App. 5
amounting to an extra $171,643.73 paid by [Appellants]
under the federal judgment.” App. 275. Plaintiffs’
counsel opposed Appellants’ motion. In support of their
respective positions, both parties submitted evidence,
including affidavits signed by plaintiff nurses asserting
they received less compensation than was awarded to
them and financial records demonstrating that the
funds were appropriately disbursed. DefendantsAppellants requested that the district court hold an
evidentiary hearing to resolve this conflicting evidence
and determine whether plaintiffs’ counsel properly
disbursed the money he collected from them.
The district court referred the motion for sanctions
to Magistrate Judge Go. In September 2018, the
magistrate judge issued a Report and Recommendation
(“R & R”), recommending that the motion be denied.
The magistrate judge found that the bank statements
and copies of checks that were submitted by plaintiffs’
counsel “provide persuasive evidence that appropriate
funds were disbursed to the plaintiffs,” SA 31, and
called the allegation that plaintiffs’ counsel had ‘double
dipped’ a “bald assertion” unsupported by any evidence
other than affidavits of the plaintiffs, many of which
were contradicted by the bank statements and check
copies. SA 32. The district court adopted the R & R over
Appellants’ objections and denied the motion for
sanctions, specifically rejecting as “unsupported by any
legal authority or factual basis” Appellants’ argument
that an evidentiary hearing should have been held. SA
6. Appellants appeal the district court’s order.

App. 6
II.
We review a district court’s decision to deny a
party’s motion for sanctions for abuse of discretion.
Virginia Properties, LLC v. T-Mobile Northeast LLC,
865 F.3d 110, 113 (2d Cir. 2017). “A district court
would necessarily abuse its discretion if it based its
ruling on an erroneous view of the law or on a clearly
erroneous assessment of the evidence.” Id. (internal
quotation marks omitted).
III.
Federal Rule of Civil Procedure 78(b) allows a court
to determine motions on briefs without the need for an
oral hearing. Appellants argue that, though a district
court is permitted to decide a motion for sanctions on
submissions alone, it should have ordered an
evidentiary hearing in this case because there were
disputed facts. Appellants cite no authority for the
proposition that a district court errs when it does not
hold an evidentiary hearing for a non-dispositive
motion in a civil case, and we have found no error even
in a district court’s imposition of sanctions without a
full evidentiary hearing. See, e.g., In re 60 East 80th
Street Equities, Inc., 218 F.3d 109, 117 (2d Cir. 2000)
(“The opportunity to respond [to a motion for sanctions]
is judged under a reasonableness standard: a full
evidentiary hearing is not required . . . .”). Absent any
caselaw to the contrary, we decline to find error in the
district court’s decision to rule on the motion for
sanctions without holding an evidentiary hearing.
Nor do we think the district court abused its
discretion in ultimately declining to impose sanctions

App. 7
on plaintiffs’ counsel. In its R & R, which the district
court adopted, the magistrate judge carefully
scrutinized the available evidence before
recommending the motion be denied because
“defendants have not presented sufficient evidence to
support . . . their [contention] that [plaintiffs’ counsel]
pocketed monies that should have been distributed to
the” plaintiffs. SA 32. Neither the district court’s
reliance on this thorough analysis nor that court’s
ultimate conclusion that the evidence did not warrant
imposing sanctions on plaintiffs’ counsel was error.
***
We have considered Appellants’ remaining
arguments and find them to be without merit. We
hereby AFFIRM the order of the district court.

FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

App. 8

APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
07-CV-4672 (NGG) (MDG)
[Filed September 30, 2018]
______________________________________
CLAUDIA GAYLE, et al.,
)
)
Plaintiffs,
)
)
-against)
)
HARRY’S NURSES REGISTRY, INC.,
)
and HARRY DORVILIER a/k/a HARRY )
DORVILIEN,
)
)
Defendants.
)
______________________________________ )
ORDER
NICHOLAS G. GARAUFIS, United States District
Judge.

App. 9
On September 22, 2017, Defendant Harry Dorvilier,
then proceeding pro se,1 moved the court to order
sanctions against counsel for Plaintiffs (the “Motion”).
(See Sept. 22, 2017, Letter (Dkt. 233).) The
undersigned referred the Motion to Magistrate Judge
Marilyn D. Go for a report and recommendation
(“R&R”). (Sept. 28, 2017, Order Referring Mot. (Dkt.
235).)
On September 11, 2018, Judge Go issued an R&R
recommending that the court deny the Motion. (R&R
(Dkt. 261).)2 The R&R makes three legal
recommendations. First, recognizing that federal courts
are courts of limited jurisdiction, the R&R recommends
that the court exercise ancillary jurisdiction over the
Motion. (R&R at 19-21.) Second, the R&R recommends
that the court deny as moot the portion of the Motion
that rests on the claim that “[P]laintiffs’ counsel failed
to provide satisfactions for the judgments filed in
Queens County.” (Id. at 21-23.) Finally, the R&R
recommends denial of the Motion because
“[D]efendants have not presented sufficient evidence to
support . . . their [contention] that [Plaintiffs’ counsel]
pocketed monies that should have been distributed to
the Plaintiff-Affiants and the other plaintiffs.” (Id. at
23-25.) Defendants—represented by counsel—objected
1

On July 9, 2018, Thomas F. Liotti entered an appearance on
behalf of Defendants Dorvilier and Harry’s Nurses Registry, Inc.
(Notice of Appearance (Dkt. 244); see July 9, 2018, Defs. Letter
(Dkt. 245) (adopting all “pro se submissions heretofore submitted
to the [c]ourt” by Dorvilier).

2

A full procedural history of this long-running action is set forth
in Judge Go’s R&R. (See R&R at 2-18.)

App. 10
to the R&R (see Defs. Objs. (Dkt. 262)), and Plaintiffs
replied to Defendants’ objections (see Pls. Resp. to Defs.
Objs. (“Pls. Reply”) (Dkt. 263)).
For the following reasons, the court ADOPTS IN
FULL the R&R and DENIES the Motion.
I. STANDARD OF REVIEW
In reviewing an R&R from a magistrate judge, the
district court may adopt “those portions of [the R&R] to
which no ‘specific written objections’ are made . . . as
long as the factual and legal bases supporting the
findings are not clearly erroneous.” McCrary v. Marks,
No. 17-CV-4368 (JFB), 2018 WL 4204244, at *1
(E.D.N.Y. Sept. 4, 2018) (citing, inter alia, Fed. R. Civ.
P. 72(b)); see Gesualdi v. Mack Excavation & Trailer
Serv., Inc., No. 09-CV-2502 (KAM), 2010 WL 985294, at
*1 (E.D.N.Y. Mar. 15, 2010) (“Where no objection to the
[R&R] has been filed, the district court need only
satisfy itself that there is no clear error on the face of
the record.” (internal quotation marks and citation
omitted)). “A decision is ‘clearly erroneous’ when the
Court is, ‘upon review of the entire record, left with the
definite and firm conviction that a mistake has been
committed.”’ DiPilato v. 7-Eleven, Inc., 662 F. Supp. 2d
333, 339-40 (S.D.N.Y. 2009) (alteration adopted)
(quoting United States v. Snow, 462 F.3d 55, 72 (2d
Cir. 2006)).
The district court must review de novo “those
portions of the report . . . to which objection is made.”
28 U.S.C. § 636(b)(1); see Fed. R. Civ. P. 72(b)(3). To
obtain this de novo review, an objecting party “must
point out the specific portions of the [R&R]” to which

App. 11
objection is made. Sleepy’s LLC v. Select Comfort
Wholesale Corp., 222 F. Supp. 3d 169, 174 (E.D.N.Y.
2016); see also Fed. R. Civ. P. 72(b)(2) (“[A] party may
serve and file specific written objections to the
[R&R].”). If a party “makes only conclusory or general
objections, or simply reiterates his original arguments,
the [c]ourt reviews the [R&R] only for clear error.” Pall
Corp. v. Entegris, Inc., 249 F.R.D. 48, 51 (E.D.N.Y.
2008) (citations omitted); see also Mario v. P & C Food
Mkts., Inc., 313 F.3d 758, 766 (2d Cir. 2002) (holding
that the plaintiff’s objection to an R&R was “not
specific enough” to “constitute an adequate objection
under . . . Fed. R. Civ. P. 72(b)”).
II. DISCUSSION
A. Defendants’ Objections
Defendants’ objections are short, unspecific, and
conclusory. First, Defendants claim that there are four,
rather than three, judgments that have not yet been
satisfied. (Defs. Objs. ¶ 2.) Second, Defendants claim
that the court never issued a decision on Dorvilier’s
August 18, 2009, motion for reconsideration of the
court’s denial of his motion for summary judgment. (Id.
¶ 3.) Third, Defendants object “to the entire report” on
the grounds that Dorvilier’s “due process rights were
violated.” (Id. ¶ 4.) Fourth, Defendants seemingly
object to the fact that the R&R does not recommend
that Plaintiffs’ counsel be required to deposit
$13,544.84, which he currently holds in an escrow
account, with the court. (Id. ¶ 5.) Finally, Defendants
argue that sanctions should be granted “because the
satisfactions of judgment were not filed within [90]
days after the judgment was entered.” (Id. ¶ 6.)

App. 12
B. Review of Defendants’ Objections
Plaintiffs aver that the court should review the
R&R for clear error because Defendants’ objections
“lack the requisite specificity to trigger de novo review.”
(Pls. Reply at 2.) The court agrees.
First, as to the debate over the number of
judgments, Plaintiffs state that Defendants have not
shown that the supposed fourth judgment exists. (Id. at
2-3.) Defendants have not appended the judgment to
their objections, nor have they provided any identifying
information, such as a docket number. (Id. at 3.)
Defendants’ contention that four judgments exist
“inexplicabl[e]” and proceeded to set forth how “there
were only three judgments entered in this action.”
(R&R at 22-23.) The court agrees that Defendants’
objection to the R&R on this ground is conclusory and
lacks both a factual basis and supporting legal
authority. This portion of the R&R is thus only subject
to review for clear error.
As to the motion for reconsideration, a review of the
docket clearly shows that Dorvilier agreed to withdraw
this motion at a hearing before Judge Go on August 19,
2009. (See Aug. 19, 2009, Min. Entry (Dkt. 81).)
Accordingly, whatever objections Defendants may have
stemming from the August 10, 2009, motion for
reconsideration are inappropriate.
Next, the court agrees with Plaintiffs that
Defendants’ “due process” objections are unsupported
by any legal authority or factual basis. (Pls. Reply at 34.) Indeed, Defendants cite no authority in support of
their claim that “all the nurses should be required to

App. 13
testify under oath regarding overtime payments to
them and monies, if any, actually received by them.”
(Defs. Objs. ¶ 4.) Nor do Defendants offer any reason
for the court to reject the R&R’s findings that Plaintiffs’
counsel did not engage in “double dipping,” or for the
court to suspect that the checks that were provided in
satisfaction of the outstanding judgments were “fake.”
(Id.) As Plaintiffs point out, these objections are
phrased as being what Dorvilier “believe[s],” not what
the law or facts compel. (Pls Reply at 4 n.3.) A party’s
belief, without any legal or factual basis underlying
that belief, cannot constitute a sufficiently specific
objection such that de novo review is proper.
Next, Defendants’ objection that Plaintiffs’ counsel
continues to hold $13,544.84 in his escrow account is
not directed at any portion of the R&R (See Defs. Objs.
¶ 5.) In the R&R, Judge Go noted that “the question of
disposition of the remaining funds in the Levy Davis
escrow account has not been properly briefed with legal
authority” and promised to set a schedule for
disposition of those funds. (R&R at 25.) As Plaintiffs
point out, Defendants do not object to this portion of
the R&R (Pls. Reply at 4.) Without any objection to a
specific portion of the R&R. Defendants’ objection on
this grounds functions more as a general observation,
and cannot be used to apply de novo review to the R&R.
Finally, the court also rejects Defendants’ objection
as to the denial of the motion for sanctions. In the
R&R, Judge Go explained that the motion for sanctions
was “moot” because “there are no judgments entered in
this action or any judgments docketed in Queens
County that remain to be satisfied.” (R&R at 23.)

App. 14
Defendants, however, argue that the Motion should be
granted because the satisfactions of judgment were not
filed within 90 days of the entry of judgment. (Defs.
Objs. ¶ 6.) Their only citation on this point is to N.Y.
C.P.L.R. 5021(b). (Id.) Regardless of whether C.P.L.R.
5021(b) applies to the proceeding before the court, the
court agrees with Plaintiffs that Defendants’ objection
fails because it does not “articulate [ ] any basis on
which to challenge [the R&R’s] recommendation that
the motion for sanctions be denied as moot” (Pls. Reply
at 5.)
Accordingly, the court reviews the R&R for clear
error. The court finds no clear error in the R&R and
adopts it in full.
III. CONCLUSION
For the foregoing reasons, the court ADOPTS IN
FULL the R&R (Dkt. 261) and DENIES Defendant
Harry Dorvilier’s Motion for Sanctions (Dkt. 233).
SO ORDERED.
Dated:

Brooklyn, New York
September 30, 2018
s/Nicholas G. Garaufis________
NICHOLAS G. GARAUFIS
United States District Judge

App. 15

APPENDIX C
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
CV 07-4672 (NGG) (MDG)
[Filed September 11, 2018]
____________________________________
CLAUDIA GAYLE, Individually, On )
Behalf of All Others Similarly
)
Situated as Class Representative,
)
)
Plaintiffs,
)
)
-against)
)
HARRY’S NURSES REGISTRY, INC., )
)
and HARRY DORVILIER a/k/a
HARRY DORVILIEN
)
)
Defendants.
)
___________________________________ )
REPORT AND RECOMMENDATION ON
DEFENDANTS’ MOTION FOR SANCTIONS
This is a collective action brought under the Fair
Labor Standards Act (“FLSA”), 29 U.S.C. § 201 et seq.,
in which the Court had entered three judgments in
favor of plaintiffs for damages and attorneys’ fees and
costs against defendants HARRY’S NURSES
REGISTRY, INC. (“Harry’s Nurses”) and HARRY
DORVILIER a/k/a HARRY DORVILIEN (“Dorvilier”).
See DE 180, 214, 225 (judgments entered on 9/19/2012,

App. 16
10/22/2013 and 4/15/2015, respectively). Defendant
Harry Dorvilier, originally proceeding pro se,1 filed a
letter dated September 22, 2017 entitled “Motion for
Sanctions” which the Honorable Nicholas G. Garaufis
has referred to me for report and recommendation. See
DE 233 (Motion for Sanctions); DE 236 (sealed exhibits
in support of motion); DE 235 (order referring motion).
PERTINENT BACKGROUND
The tortured history of this litigation spanning over
eight and one-half years has been discussed at length
in numerous opinions of the Court and is briefly
summarized below.
Judgments Entered
Commencing this action on November 7, 2007 on
behalf of herself and other similarly situated nurses
employed by defendants, Plaintiff Claudia Gayle
sought to recover unpaid overtime pay and liquidated
damages under the FLSA for hours worked in excess of
forty hours a week. See Complaint (DE 1) at ¶¶ 22-24.
In a memorandum and order filed March 9, 2009, the
late District Judge Charles P. Sifton granted partial
summary judgment to Ms. Gayle as to liability and
conditionally certified a class under the FLSA. See DE
53. Ultimately, fifty-five other nurses filed consents to
join this action as party plaintiffs. See DE 15, 55-59,
62, 66-73, 79-80, 85, 88-89.

1

Thomas F. Liotti, Esq. filed a notice of appearances on behalf
of both Mr. Dorvilier and Harry’s Nurses Registry, Inc. on July 9,
2018. See DE 244.

App. 17
After reassignment of this action to him, the
Honorable Nicholas G. Garaufis granted four
additional motions filed by the plaintiffs. Judge
Garaufis granted partial summary judgment as to
liability in favor of the other plaintiffs on March 2,
2012 (DE 162), and awarded damages to plaintiff
Claudia Gayle on December 30, 2010 (DE 127) and to
34 other plaintiffs on September 18, 2012.1 See DE 179.
The Clerk of the Court entered judgment on September
19, 2012 (the “2012 Judgment”) against defendants
Harry’s Nurses and Mr. Dorvilier, jointly and severally,
in the amount of $14,780.00 in favor of Plaintiff
Claudia Gayle and $619,071.76 in favor of 34 other
plaintiffs listed in an appendix to the judgment. See
DE 180. On September 30, 2013, Judge Garaufis
adopted this Court’s report and recommendation (DE
206) (“Aug. 2013 R&R”) to grant the plaintiffs’ motion
to amend and for attorneys’ fees and costs, thereby
awarding damages to two additional plaintiffs,
increasing damages to two other plaintiffs and
awarding attorneys’ fees and costs. See DE 211. The
Clerk of the Court entered an additional judgment on
October 22, 2013 (the “2013 Judgment”) awarding
damages of $300 and $1,140 to plaintiffs Ramdeo
Chankar Singh and Getty Rocourt, respectively;
additional damages of $6,512.00 to plaintiff Jane Burke
Hylton and $118,512.00 to Yolanda Robinson;2 and

1

Plaintiffs sought damages for 35 plaintiffs, but Judge Garaufis
did not award damages for Getty Recourt, who had not submitted
any pay records. See DE 179 at 8.

2

This Court recommended in the Aug. 2013 R&R that the
damages awarded to Yolanda Robinson in the 2012 judgment (DE

App. 18
attorneys’ fees and costs of $130,214.46 to plaintiffs.
See DE 214.
After entry of the 2013 Judgment, the defendants
filed a notice of appeal to the Second Circuit. See DE
215. The Second Circuit affirmed the prior decisions of
this Court granting summary judgment, specifically
rejecting defendants’ contention that the plaintiff
nurses were independent contractors rather than
employees and finding defendants’ other arguments
meritless. See Gayle v. Harry’s Nurses Registry, Inc.,
594 Fed. Appx. 714, 718 (2d Cir. 2014). Defendants
then filed a petition for writ of certiorari to the United
States Court of Appeals for the Second Circuit, which
the Supreme Court summarily denied. See Gayle v.
Harry’s Nurses Registry, Inc., 135 S. Ct. 2059 (2015).
After Judge Garaufis granted plaintiffs’ second motion
for attorneys’ fees and costs related to post-judgment
proceedings (see DE 226), the Clerk of the Court
entered a third and final judgment in favor of plaintiffs
on April 15, 2015 in the amount of $41,429.17 (the
“2015 Judgment”). See DE 226.
In sum, in three judgments entered against both
defendants, this Court awarded plaintiffs damages
amounting $760,315.76 for lost wages and liquidated
damages under the FLSA, and fees and costs of

180) be recalculated and increased to $210,864. See DE 206 at 1516. Thus the second judgment entered on September 30, 2013 (DE
211) provided for damages of $118,512.00 in favor of Ms. Robinson,
which was the difference between the recommended recalculated
damages and the $92,352.00 in damages initially awarded to Ms.
Robinson in the 2012 Judgment.

App. 19
$171,643.39, for a total of $931.959.39. See DE 180,
214, 225.
Collection of Judgments
Central to the defendants’ motion is the undisputed
fact that plaintiffs’ counsel successfully levied against
defendants’ assets and collected $931.959.39, the full
amount of the three judgments entered. See DE 228 at
1 (9/5/2017 Letter); DE 232 at 1 (Bernstein letter dated
9/15/2017). This Court has prepared and is filing
herewith as Appendix A a “Chronology of Judgments
and Funds Collected” which sets forth the dates of each
judgment, amounts collected and the aggregate
amounts disbursed.
As indicated in Appendix A, after entry of the 2012
Judgment, the plaintiffs collected $633,851.76, the full
amount of that judgment through levies on defendants’
accounts on November 23, 2012 and January 2, 2013.
Id., lns. 2, 3; DE 228 at 83, 95 (cashier checks for levied
funds payable to the U.S. Marshal). On January 8,
2014, plaintiffs collected $256,678.46, the full amount
of the 2013 Judgment entered on October 22, 2013. Id.,
ln. 7, DE 228 at 61. On August 5, 2015, plaintiff
collected the full amount of the third judgment entered
on April 15, 2015 for post-judgment fees and cost of
$41,429.17.1 Id., ln. 11; DE 228 at 74.

1

Plaintiffs have not sought to collect post-judgment interest
pursuant to 28 U.S.C. § 1961.

App. 20
Defendants’ Motion
Since defendant Henry Dorvilier initially filed his
motion without benefit of counsel, he set forth his
claims and contentions in many different submissions
before appearance of counsel. This Court will discuss
some of his filings in order to set forth all of defendants’
contentions, but will not reference subsequent filings
which repeat arguments and allegations made in
earlier submissions.
In his first post judgment submission filed on
September 5, 2017 entitled “Satisfaction of Judgment”
(the “9/5/2017 Letter”), Mr. Dorvilier complains, inter
alia, that plaintiffs’ counsel, Jonathan Bernstein of the
firm Levy Davis & Maher, LLP (“Levy Davis”), had
failed to provide satisfactions of judgments after
collecting the full amount of the judgments entered;
and had “double dipped” by appropriating funds
collected that should have been paid to the plaintiffs
and receiving more monies than what the Court
awarded. See DE 228 at 1-2. As proof that Levy Davis
did not pay the plaintiffs, Mr. Dorvilier submitted
affidavits signed by plaintiffs Paulette Miller (DE 228-1
at 43), Lindon Morrison (DE 228-1 at 44) and Yolanda
Robinson (DE 228-1 at 42) (hereafter, each will be
referred to as “Plaintiff-Affiant”) in which each attested
that he or she received less compensation than was
awarded in this action. In their affidavits, each
Plaintiff-Affiant stated the amount he or she was
entitled to receive and the actual (and lesser) check
amount the affiant claimed to have receive from Levy
Davis. See ¶¶ 7 and 8 of the affidavits of Miller,
Morrison and Robinson (DE 228-1 at 42-43). The

App. 21
affidavits are identical in form, with handwritten
numbers inserted for the amounts awarded and
received. Id. In a letter dated October 27, 2017 entitled
“Motion for Sanctions” (DE 236), Mr. Dorvilier
submitted an affidavit from a fourth plaintiff, Jane
Burke Hylton, which was signed on October 27, 2017
using the same form as the affidavits signed by the
other three Plaintiff-Affiants. See DE 268-1 at 2. In her
affidavit, Ms. Burke Hylton also stated that she
received only one check from Levy Davis for less than
the full amount of damages awarded. See DE 268-1 at
2.
Mr. Dorvilier also submitted two unsigned form
affidavits purportedly from plaintiffs Annabel
Llewellyn and Brenda Lewis, which also had
handwritten numbers for the amounts of compensation
to be received and the smaller amount actually
received. See DE 228 at 36, 38 (Exhibits to Def.’s
9/5/2017 Letter). He also provided a copy of a Notice of
Levy issued by the Internal Revenue Service against
plaintiff Sulaiman Ali-el and claimed that this plaintiff
is deceased. See DE 228 at 4; 45 (notice of levy). Mr.
Dorvilier also asserted his belief that plaintiff Claudia
Gayle was likely not to have received any funds from
Mr. Bernstein since she had been deported. See DE 236
at 1.
As further support for his argument that Levy
Davis did not pay plaintiffs the amounts awarded, Mr.
Dorvilier quoted a passage from a letter dated June 13,
2016 sent by Mr. Bernstein to the Grievance

App. 22
Committee1 of the Appellate Division of the First
Judicial Department of the New York State Supreme
Court (“Grievance Committee”) stating that “of the
$760,496.96 collected (representing the judgment for
the plaintiffs exclusive of attorney’s fees . . . ),
$13,719.04 remains in my firm’s trust account.” DE 228
at 5, 27 (excerpt of 6/13/2016 letter to the Department
Disciplinary Committee). Mr. Dorvilier contended that
any amounts remaining in escrow should be returned
to him and seeks proof all proper tax filings were made
and an accounting of the records of Mr. Bernstein’s
firm. Id. at 5-6.
Next, Mr. Dorvilier inexplicably claimed that the
judgments filed by Levy Davis in Queens County is
evidence of “double dipping” and points to eight
transcripts of judgments from the Queens County
Clerk’s Office. See DE 228 at 3 (letter); at 12, 22, 24,
28, 29-32 (transcripts of judgment). Mr. Dorvilier did
not provide any explanation how the docketing of these
judgments in Queens County would constitute evidence
of “double billing,” or why he would otherwise be
entitled to an audit or examination of the
disbursements to plaintiffs by Levy Davis, which he
has sought. The eight judgments docketed in Queens
County simply correspond to the three federal
judgments entered in this Court as follows: (1) two

1

The disciplinary proceedings apparently had been initiated by
Mr. Dorvilier, but the Grievance Committee found after an
investigation that there did not “appear to be a sufficient basis to
conclude that [Jonathan Bernstein] failed to deliver judgment
proceeds belonging to his client.” Letter dated 4/28/2017 from the
attorney Grievance Committee to Harry Dorvilier (DE 234-1) at 1.

App. 23
judgments reflect the 2012 Judgment -- one in favor of
Claudia Gayle for $14,780.00 and one for $619,071.76
in the name of for Susan Ajiboye, the first plaintiffs
named in the appendix to the 2012 Judgment, as well
as the other plaintiffs in an appendix annexed to the
transcript; (2) five judgments reflect the 2013
Judgment -- four in the names of Yolanda Robinson,
Jane Burke Hylton, Getty Recourt and Ramdeo Singh
for damages awarded, and one in the name of Claudia
Gayle for $130,214.46, for the amount of attorneys’ fees
and costs awarded; and (3) one judgment in favor of
Claudia Gayle for $41,429.17 reflects the 2015
Judgment awarding fees and costs. Id.
In addition, Mr. Dorvilier contends in his 9/5/2017
Letter that the prior decisions of Judge Sifton and
Judge Garaufis should be reversed. See 228 at 2.
Insofar as he still seeks such relief, these contentions
clearly are meritless in light of defendants’
unsuccessful appeals in this case and will not be
further discussed in this report and recommendation.
By order filed on September 14, 2017, Judge
Garaufis directed Plaintiffs to file a letter by
September 22, 2017 “(1) stating whether Plaintiffs have
received from Defendants all amounts due under the
court’s judgments in this case; and (2) responding to
Dorvilier’s allegation that Bernstein has received
payments from both the court-awarded attomeys’ fees
and from the amounts awarded to Plaintiffs and, if so,
providing the legal basis . . .” DE 230 (Order dated
9/12/2017). In his letter dated September 15, 2017, Mr.
Bernstein stated that Levy Davis had paid the
Plaintiffs all amounts due under the judgments in the

App. 24
case, except for $13,719.04, which was not paid to some
plaintiffs who could not be located and to one plaintiff
who refused to provide her Social Security number. See
DE 232 at 1-2. He acknowledged that he had failed to
issue satisfactions of judgment in a timely fashion, but
claimed he provided the satisfactions a few days after
being asked by Robert Schirtzer, an attorney who was
representing defendants at a deposition in another
FLSA case brought by different nurses and who had
previously represented defendants for a period of time
in this case. Id. at 1, n. 2 (referring to Isigi v. Harry’s
Nurses Registry, Inc., 16cv2218 (FB) (SMG))).
On September 22, 2017, Mr. Dorvilier filed a letter
addressed to Judge Garaufis entitled “Motion for
Sanctions” arguing that plaintiffs’ counsel had not
complied with Judge Garaufis’s September 15th order,
neither providing proper satisfactions of judgment nor
presenting documentation showing that plaintiffs had
been paid in accordance with the judgments and tax
laws. See DE 233. Judge Garaufis then referred the
motion to me for report and recommendation. See DE
235.
In an order electronically filed on November 2, 2017,
this Court directed plaintiffs’ counsel to file “an
accounting which sets forth all the amounts collected to
satisfy the judgments entered herein and all
disbursements made [which] must include the amounts
and dates of all checks disbursed to the individual
plaintiffs and dates the checks were negotiated.” In his
response, Mr. Bernstein provided a chart setting forth
the amounts received from levies by the U.S. Marshal
and the aggregate distributions made to the plaintiffs

App. 25
and to his firm for attorneys’ fees and costs. See DE
237 at 1 (letter of Jonathan Bernstein dated November
13, 2017) and 237-1 (chart). Besides discussing the
checks Levy Davis had issued to the four AffiantPlaintiffs and the plaintiffs whose unsigned affidavits
had been submitted by Mr. Dorvilier, Mr. Bernstein
attached a spreadsheet containing information as to all
the checks issued from his firm’s escrow account to
each plaintiff, including check numbers, dates and
amounts of checks and the dates that checks were
negotiated. See DE 237 at 3-5 (letter); DE 237-2
(spreadsheet).
As to plaintiff Sulaiman Ali-El, Mr. Bernstein
stated that a check that Levy Davis mailed in 2014 was
returned and that the balance of the award was later
sent to taxing authorities after Levy Davis received a
notice of levy from the New York State Department of
Taxation. See DE 237 at 5. Mr. Bernstein also stated
that plaintiff Martha Ogunjana had not negotiated a
check sent to her in 2014 for full payment of her $653
damages award, and that his firm did not send checks
to six plaintiffs who could not be located and to Brenda
Lewis who had refused to provide her Social Security
number. Id. at 2-4.
Following the appearance of Mr. Liotti on behalf of
defendants, this Court held a conference on July 19,
2018 and ordered plaintiffs’ counsel to provide copies of
the fronts and backs of all checks issued by counsel to
the four Plaintiff-Affiants and to submit for in camera
inspection copies of all escrow checks issued to other
plaintiffs during the same time frame. See DE 248
(Minute Order dated 7/19/2018). By letter dated July

App. 26
24, 2018, Mr. Bernstein filed copies of the fronts and
backs of the checks issued to the four Plaintiff-Affiants
and copies of bank statements for the Levy Davis
attorney trust account for the periods from January 1,
2013 through April 30, 2013 and January 1, 2014
through February 29, 2014 for in camera inspection.
See DE 249 (letter); DE 250 (sealed checks and bank
statements). By electronic order filed on July 25, 2015,
this Court directed Mr. Bernstein, inter alia, to send
the four Plaintiff-Affiants “copies of the fronts and
backs of the checks made to each of them, respectively,
together with a copy of their respective affidavits and
this electronic order.” See ECF Order filed on
7/25/2018. This Court further stated in the order that:
“The plaintiffs are advised they may send a response to
this Court, at 225 Cadman Plaza East, Brooklyn, NY
11201 or to Mr. Bernstein, who is responsible for filing
any response received.” Id.
On July 27, 2018, Mr. Bernstein filed a revised
spreadsheet to add information regarding the dates
that checks issued to three plaintiffs were negotiated,
and bank statements for his firm’s escrow account for
March 2013 and March 2014 for in camera inspection.
See DE 251 (letter); 251-1 (spreadsheet); 252 (sealed
bank statements). Mr. Bernstein subsequently filed a
status report on August 17, 2018 attaching copies of his
letters to the four Plaintiff-Affiants in which he
provided copies of canceled checks and the ECF Order
filed July 25, 2018. See DE 257 and 257-1. He also filed
a handwritten letter dated August 11, 2018 from
plaintiff Jane Burke Hylton to Levy Davis stating that
“the Two checks mentioned in your letter was [sic]
received as mentioned” and apologized for not

App. 27
remembering about the checks and for any
inconvenience caused. See DE 257-2. Mr. Bernstein
also stated he had not heard received any
communication from plaintiffs Robinson, Miller or
Morrison, nor received a response from plaintiff
Martha Ogunjana to his letter regarding a $653 check
to her that had not been cashed. See DE 257 at 1-2.
Findings regarding Funds Distributed to the
Plaintiffs. This Court has examined the copies of the
checks issued to Plaintiff-Affiants and the bank
statements submitted, which also include copies of the
fronts of all negotiated checks. As this Court advised at
a conference held on August 17, 2018, “the dates and
amounts of checks issued to the plaintiffs set forth in
the spreadsheets and other documents filed by
plaintiffs’ counsel are consistent with the bank records
examined.” Minute entry for conference on 8/17/2018.
To assist in analyzing the checks disbursed by
plaintiffs’ counsel to the plaintiffs, this Court has
prepared a new spreadsheet filed herewith as Appendix
B which contains the same check data as in the revised
spreadsheet filed by plaintiffs’ counsel on July 27, 2018
(DE 251-1), but organizes the checks disbursed by year.
Appendix B also includes three additional dates that
checks were negotiated, based on information
contained in the bank statements this Court examined.
In addition, since plaintiffs’ counsel states that the
check issued to Martha Ogunjana for $653 has not been
cashed, this Court has changed the information as to
Ms. Ogunjana, reducing the amount paid to her to
$0.00 and adding that $653 remains unpaid. This, in
turn, increases the escrow balance from the amount in

App. 28
plaintiffs’ spreadsheets by $653 to $14,197.04. See
Appendix B, col. P; see also, Appendix A, col F, ln. 13.
This Court has highlighted and used red typeface the
data in Appendix B that differ from the information
contained in the by plaintiffs’ spreadsheets. Contrast
Appendix B with DE 251-1.
As reflected in columns D, H and L of Appendix B,
Levy Davis issued checks to plaintiffs totaling
$440,933.83 in 2013; checks totaling $288,722.93 in
2014; and 5 checks after 2014 totaling $17,114.96. With
respect to the checks issued to the plaintiffs in 2013,
Mr. Bernstein stated that after his firm collected the
2012 Judgment,1 his firm decided to send each plaintiff
only 75% of the damages awarded and to retain the
balance for payment of fees, which had not yet been
determined. See 9/15/2017 letter (DE 232) at 3. He said
his firm did so, because of concern that any fees
awarded might not be collectible once judgment was
entered and because the retainer agreement with the
Plaintiff provided for fees of the greater of “(a) onethird of the recovery or (b) monies designated by the
Court as attorneys’ fees . . . ” Id. at 3-4. This Court has
confirmed that the amount sent to each plaintiff in
2013, as set forth in column D of Appendix B, indeed
equals 75% of the amounts awarded to each plaintiff.
However, the aggregate amount distributed
($440,933.83) was only 70% of the 2012 Judgment of

1

Mr. Bernstein incorrectly stated in his letter that the judgment
entered in 2012 was for $619,071. DE 232 at 3. That amount was
the judgment for the plaintiffs other than Claudia Gayle, who was
awarded damages of $14,780 in 2010. That damage award was
included in the 2012 judgment.

App. 29
$633,851.76, since checks to 14 of the plaintiffs either
were returned or were not sent to plaintiffs whom Levy
Davis could not locate. See DE 232 at 2 (noting that
Levy Davis had not been able to locate several
plaintiffs); 237 at 4, 5 (noting that checks mailed to
Martha Ogunjana in 2012 and to Sulaiman Ali-El in
2014 had been returned by the Post Office).
After the Court entered the second judgment on
October 22, 2013 awarding increased or new damages
to certain plaintiffs and attorneys’ fees and costs, Levy
Davis issued a check to itself on October 25, 2013 for
$130,214.46 for fees and costs, leaving an escrow
balance of $62,703.47. See Appendix A, lns. 5, 6.
Plaintiffs’ counsel then collected the full 2013 judgment
on January 8, 20144 and distributed checks to
plaintiffs totaling $288,722.93 in January and
February 2014, and four checks to plaintiffs totaling
$17,114.96 after 2014. Id., lns. 8, 10.
This Court specifically finds, based on the bank
statements and checks submitted, that all the
information in plaintiffs’ spreadsheets regarding the 25
checks issued by plaintiffs’ counsel to 24 plaintiffs1 in
2013 and the 26 checks issued to plaintiffs in 2014

1

The entry for plaintiff Claudia Gayle on the spreadsheets and
Appendix B show that the two checks totaling $11,085.00 were
issued to her in 2013. As explained by plaintiffs’ counsel, Ms. Gayle
had requested that a check for $1,000 be drawn to a creditor. See
11/17/2017 letter of J. Bernstein (DE 237) at 3. This Court
confirmed from the bank statements that check # 16647 for
$10,085.00 made to Ms. Gayle’s order was negotiated on January
29, 2013 and check number 15548 for $1,000 check payable to the
order of an attorney was negotiated on February 6, 2013.

App. 30
accurately reflects the checks reviewed, except that
corroborating information is lacking for three checks
issued in 2013 to plaintiffs Willie Evans, Merlyn
Patterson and Patricia Robinson, who apparently
negotiated their checks after April 1, 2013, in months
for which there were no bank statements submitted by
plaintiffs.1 The checks issued in these two years totaled
$746,118.72. See Appendix A. In addition, the notice of
levy and other documentation Mr. Bernstein has
submitted adequately demonstrates that Levy Davis
sent $5,802.98, the balance of the judgment owed
plaintiff Sulaiman Ali-E, to the New York State
Department of Taxation and Finance in response to a
Tax Compliance Levy served on the firm regarding this
plaintiff’s tax obligations. See DE 237 at 5; 237-3
(notice of levy and 5/8/2017 letter from Jonathan
Bernstein forwarding check to Department of
Taxation). Thus, this payment is properly credited on
plaintiffs’ spreadsheets as a payment to Sulaiman AliE.
Plaintiffs also indicate in their spreadsheets that in
2015, Levy Davis sent checks totaling $11,311.98 to
plaintiffs Ramdeo Charkar Singh, Mary Davis,
Nathalie Francois and Jacqueline Ward. See Appendix
B, col. L. Although Levy Davis did not submit the bank
statements for the months that the four checks to these

1

The bank statement filed for March 2013 by plaintiff did not
include a copy of the $8,408.92 check negotiated by Sulaiman AliEl, but does indicate that check # 16762 for that amount was
negotiated on March 5, 2013, as reflected in the spreadsheet
plaintiff filed. Compare DE 250 at 1, 3 (bank statement) with DE
251-1 (spreadsheet, ln. 2)

App. 31
plaintiffs were negotiated, this Court finds no reason to
require submission of additional bank statements to
verify the information on the plaintiffs’ spreadsheets,
given the accuracy of all the other information on the
spreadsheet as to almost all other checks sent to
plaintiffs, as discussed above, and given the absence of
any indication from the plaintiffs to whom checks had
been issued in 2015 that they did not receive full
payment of their awards.
Even though the statements of the four PlaintiffAffiants in their affidavits initially raised concerns that
Levy Davis had not sent these plaintiffs their full
awards, the checks and bank statements submitted by
counsel dispel such concern. The submissions show
that Levy Davis issued two checks to each PlaintiffAffiant for the full amounts of their awards -- the first
check for 75% of the award in 2013 and a second check
for the balance in 2014. See DE 250 at 1-8 (checks); 13,
15-16 (1/2013 bank statements); 21-22, 24-26 (2/2014
bank statements); Appendix B.
Significantly, Jane Burke Hylton, one of the
Plaintiff-Affiants, sent a letter to Levy Davis admitted
that she had indeed received the two checks that Levy
Davis said it had sent to her. See DE 257-2. Neither
the defendants nor the other Plaintiff-Affiants, who
have been provided copies of the fronts and backs of
checks issued to the Plaintiff-Affiants, have disputed
that accuracy of the checks sent to Plaintiff-Affiants
and negotiated by them.
Moreover, the copies of the two checks that Levy
Davis issued to each Plaintiff-Affiant bear signatures
that are very similar to each other, as well as to the

App. 32
signature on the affidavits of the Plaintiff-Affiants
Compare DE 228-1 at 42-4 (affidavits of Yolanda
Robinson, Paulette Miller and Lindon Morrison), DE
236-1 at 1 (affidavit of Jane Burke Hylton) and DE 249
(Bernstein letter); with DE 250 at 1-8 (copies of checks
to the Plaintiff-Affiants). In the case of Yolanda
Robinson, Paulette Miller and Jane Burke Hylton, each
admitted to receiving one check in the same amount as
reflected in the checks issued on January 29, 2013 to
her. See DE 228-1 at 42-3 (affidavits of Yolanda
Robinson and Paulette Miller), DE 236-1 at 1 (affidavit
of Jane Burke Hylton) and DE 250 at 1, 3 and 7 (copies
of checks plaintiffs Robinson, Burke Hylton and
Miller). The signatures of these three Plaintiff-Affiants
endorsed on backs of these checks are strikingly
similar to the signatures on the backs of the checks
issued in 2014 that the Plaintiff-Affiant do not
acknowledge receiving. Compare DE 250 at 1, 3 and 7
(checks acknowledged to have received by plaintiffs
Robinson, Burke Hylton and Miller, respectively) with
DE 250 at 2, 4 and 8 (checks plaintiffs Robinson, Burke
Hylton and Miller claim in their affidavits that they
not receive).
The signature of Plaintiff-Affiant Lindon Morrison
in his affidavit is also similar to his signatures on the
backs of the two checks issued by Levy Davis. Compare
DE 228 at 44 (affidavit) with DE 250 at 5, 6 (checks).
However, the amount that Mr. Morrison acknowledged
in his affidavit as having received ($38,321.00) is
different from the amounts reflected in either of the
two checks that Levy Davis issued to Mr. Morrison
($34,440.75 on June 19, 2013 and $11,480.25 on
January 30, 2014). Id. Since this discrepancy in check

App. 33
amounts is more than a typographical error, serious
questions are raised whether Mr. Morrison’s affidavit
was accurate when signed, particularly since Jane
Burke Hylton has already disclaimed the statements in
her affidavit.1
LEGAL DISCUSSION
The Defendants raise two primary claims in their
post-judgment motion for sanctions which center on the
post-judgment conduct of plaintiffs’ counsel: (1) that
Levy Davis had failed to provide satisfactions of
judgments after collecting the full amount of
judgments, and (2) that counsel retained collected
funds that should have been paid to individual
plaintiffs.
Since federal courts are courts of limited
jurisdiction, this Court first addresses the threshold
issue whether the Court has subject matter jurisdiction
the claims raised. Cf. Reno v. Am.-Arab
Anti–Discrimination Comm., 525 U.S. 471, 488 n. 10
(1999) (a federal court is free to examine its subjectmatter jurisdiction sua sponte). “As a general rule, once

1

The affidavits of Jane Burke Hylton and Lindon Morrison lend
support for Mr. Bernstein’s suspicions raised in his September 25,
2017 letter the affidavits produced were fraudulently procured by
a private investigator employed by Mr. Dorvilier and are not
accurate. See DE 234 at 1. Mr. Bernstein submitted an affidavit
from plaintiff Bernice Sankar stating that she received a voice
mail message from a person identifying himself as Ryan of
Investigative Management who stated that if she could be eligible
for more money if she signed an affidavit stating that she did not
receive the amount of money she was entitled to receive. See letter
(DE 234) at 1; Sankar affidavit (DE 234-2).

App. 34
a federal court has entered judgment, it has ancillary
jurisdiction over subsequent proceedings necessary to
‘vindicate its authority, and effectuate its decrees.’”
Dulce v. Dulce, 233 F.3d 143, 146 (2d Cir. 2000)
(quoting Peacock v. Thomas, 516 U.S. 349, 354 (1996)).
The Supreme Court in Kokkonen v. Guardian Life Ins.
Co., 511 U.S. 375 (1994), recognized that ancillary
jurisdiction “existed in only two types of situations:
1) to permit disposition by a single court of claims that
are, in varying respects and degrees, factually
interdependent; and, 2) to enable a court to function
successfully, that is, to manage its proceedings,
vindicate its authority and effectuate its decrees.” HBE
Leasing Corp. v. Frank, 882 F. Supp. 60, 61-63
(S.D.N.Y. 1995) (citing Kokkonen at 378); see also
Peacock, 516 U.S. at 354.
Although defendants’ request to compel plaintiffs to
provide satisfactions of judgment does not technically
pertain to enforcement of any judgment or order of this
Court, the only issue remaining, as discussed below,
pertains to whether satisfactions of judgment have
been filed in this Court. See 8/24/2018 letter of Thomas
Liotti (DE 258) at 1. Since the determination of
whether proper satisfactions of judgment have been
filed in this Court concerns docket management and
does not raise new issues of liability or claims, I
respectfully recommend that this Court exercise
ancillary jurisdiction to address this aspect of
defendants’ motion. Cf., Kokkonen, 511 U.S. at 378.
Second, the issue whether plaintiffs’ counsel
properly paid the funds collected to the plaintiffs
clearly falls within the ancillary jurisdiction of this

App. 35
Court to insure that the awards made to the plaintiffs
and embodied in the judgments entered were properly
paid. Cf. Grimes v. Chrysler Motors Corp., 565 F.2d
841, 843–44 (2d Cir. 1977) (affirming district court’s
jurisdiction to supervise the distribution of settlement
funds). In any event, this Court may properly exercise
jurisdiction over the issue of disbursement of funds
under its “inherent authority to police the conduct of
attorneys as officers of the court.” In re World Trade
Ctr. Disaster Site Litig., 754 F.3d 114, 125–26 (2d Cir.
2014). Notwithstanding the fact defendants lack
standing to raise non-payment claims on behalf of any
plaintiff, I recommend that the Court exercise ancillary
jurisdiction, as well as its inherent power, to hear that
aspect of the defendants’ motion regarding the alleged
failure of counsel to distribute funds to plaintiffs
collected under judgments entered in this Court.
Satisfactions of Judgment. In his letter filed on
September 5, 2017, Mr. Dorvilier complained that
plaintiffs’ counsel failed to provide satisfactions for the
judgments filed in Queens County, as discussed above.
See DE 228 at 2-3. As Thomas Liotti, counsel for
defendants, noted in his letter dated July 9, 2018, those
judgments still had not been satisfied as of the date of
his letter. See DE 245 at 1. Mr. Bernstein advised in
his letter dated August 6, 2018 that he had filed seven
satisfactions of judgment with the Queens County
Clerk, and submitted copies of the filed satisfactions.
See DE 254 (letter); DE 254-1 (satisfactions of
judgment). In a letter dated August 10, 2018, Mr.
Bernstein provided a copy of a satisfaction of judgment
filed in Queens County with respect to an eighth
satisfaction of judgment in favor of plaintiff Getty

App. 36
Recort. See DE 255 (letter); DE 255-1 (satisfaction of
judgment).
Each satisfaction of judgment bears the stamp of
the County Clerk, Queens County indicating that the
satisfaction had been entered by the Queens County
Clerk -- seven satisfactions were entered on August 2,
2018 (DE 254-1) and an eighth was entered on August
8, 2018 (DE 255-1). This Court has examined the
satisfactions of judgment submitted and find that they
properly dispose of the eight judgments docketed in
Queens County noted on the transcripts of judgment
filed by defendants. Compare DE 245-2 at 2 (transcript
of judgment for Gayle for fees) with DE 254-1 at 2 (filed
satisfaction); DE 245-2 at 7 (transcript of judgment for
Getty Recourt) with DE 256-1 (filed satisfaction); DE
245-2 at 12 (transcript of judgment for Ramdeo Singh)
with DE 254-1 at 3 (filed satisfaction); DE 245-2 at 15
(transcript of judgment for Claudia Gayle) with DE
254-1 at 6 (filed satisfaction); DE 245-2 at 20
(transcript of judgment for Claudia Gayle for fees) with
DE 254-1 at 1 (filed satisfaction); DE 245-2 at 25
(transcript of judgment for Yolanda Robinson) with DE
254-1 at 7 (filed satisfaction); DE 245-2 at 30
(transcript of judgment for Jane Burke Hylton) with
DE 254-1 at 4 (filed satisfaction); DE 245-2 at 34
(transcript of judgment for Susanna Ajiboye, et al.)
with DE 254-1 at 5 (filed satisfaction).
Although defense counsel initially argued
(incorrectly) that the satisfactions presented were
defective because they had been signed by counsel
rather than the plaintiffs (see 8/13/2018 letter (DE
256)), Mr. Liotti later acknowledged in his August 24,

App. 37
2018 letter that he had confirmed with the Queens
County Clerk that the judgments had been satisfied.
See DE 258 at 1. However, Mr. Liotti inexplicably now
contends that four judgments filed in this Court have
not yet been satisfied. Id. As a preliminary matter, this
Court notes that there were only three judgments
entered in this action, as discussed above. See DE 180,
214 and 226; supra at 2-3. Defendants incorrectly refer
to “Judgment 1” as a $619,071.76 judgment dated
September 12, 2012 and “Judgment 2” as a $14,780
judgment dated December 31, 2017. See DE 258 at 1
(letter). Although Judge Garaufis awarded damages
first to Claudia Gayle in on December 30, 2010 (DE 127
at 12) and then to the other plaintiffs on September 18,
2018 (DE 179 at 10), these damages awards are
embodied in a single judgment entered on September
19, 2012. See DE 180. As plaintiffs’ counsel correctly
points out, satisfactions of judgment for this 2012
Judgment and the two judgments entered in this Court
were filed on February 22, 2018. See letter of Jonathan
Bernstein filed Aug. 26, 2018 (DE 259) at 1 (noting
satisfactions of judgment filed (DE 240)).
Since there are no judgments entered in this action
or any judgments docketed in Queens County that
remain to be satisfied, that part defendants’ motion for
sanctions seeking to compel plaintiffs to file
satisfactions of judgment is moot. See Westchester v.
U.S. Dep’t of Hous. & Urban Dev., 778 F.3d 412,
416–17 (2d Cir. 2015) (an action becomes moot when
court is not able to grant any relief). Thus, I
respectfully recommend that this prong of defendants’
motion for sanctions be denied.

App. 38
Disbursement of Funds to Plaintiffs. The bank
statements and copies of checks submitted by Mr.
Bernstein, as an officer of the Court, provide
persuasive evidence that appropriate funds were
disbursed to the plaintiffs. As discussed above, this
Court finds from examining these records that the
information about the checks listed in Appendix B and
plaintiffs’ spreadsheets are corroborated by the bank
statements, except for three checks listed for 2013 and
three in 2015. Accordingly, this Court finds that Levy
Davis properly paid plaintiffs the amounts awarded to
them by the Court.
Nonetheless, Mr. Liotti persists in his letter filed on
August 24, 2018 in arguing that Levy Davis has
“double dipped” and asserts that Mr. Bernstein has
collected from funds that should have been paid to the
plaintiffs a contingency fee in addition to the fees
awarded under the federal judgments. See 8/24/2018
Letter (DE 258) at 2. However, other than making this
bald assertion that Levy Davis collected a contingency
fee, id., defendants have presented no evidence in
support other than the affidavits from the four
Plaintiff-Affiants. However, Levy Davis has produced
copies of checks undermining the statements made in
the affidavits that each Plaintiff-Affiants received only
one of two checks issued. Defendants have not
countered with any further evidence to cast doubt on
the accuracy of the checks provided or otherwise to
show that the four Plaintiff-Affiants did not actually
receive the second check issued to them.
Defendants also have not contested the validity of
the letter from Jane Burke Hylton retracting her

App. 39
statement in affidavit that she received only one check.
Although defendants complain that the three other
Plaintiff-Affiants have not provided similar letters of
retraction, what is more probative is that the other
Plaintiff-Affiants have not disputed that they were sent
the two checks after that Mr. Bernstein sent copies of
them and this Court’s order inviting them to respond.
Thus, this Court finds that defendants have not
presented sufficient evidence to support this prong of
their motion that Levy Davis pocketed monies that
should have disbursed to the Plaintiff-Affiants and the
other plaintiffs. Accordingly, I respectfully recommend
that this second prong of defendants’ motion for
sanctions be denied.
Last, defendants seek return of any amounts not
paid to individual plaintiffs remaining in the escrow
account of Levy Davis. See DE 228 at 5. Mr. Bernstein
has stated that Levy Davis will file a motion for leave
to make a cy pres donation of remaining funds to
charity. See DE 232 at 3. Since the question of
disposition of the remaining funds in the Levy Davis
escrow account has not been properly briefed with legal
authority, this Court will issue in an order setting a
schedule for disposition of those funds given the
passage of time since those amounts were collected.
CONCLUSION
For the foregoing reasons, I respectfully recommend
that defendants’ motion for sanctions be denied in all
respects.
This report and recommendation will be filed
electronically. Any objections to this Report and

App. 40
Recommendation must be filed by September 25, 2018
and a courtesy copy sent to Judge Garaufis. Failure to
file objections within the specified time waives the
right to appeal. See 28 U.S.C. § 636(b)(1); Fed. R. Civ.
P. 72(b).
SO ORDERED.
Dated:

Brooklyn, New York
September 11, 2018

/s/_________________________________________
MARILYN D. GO
UNITED STATES MAGISTRATE JUDGE

App. 41
[See Foldout Exhibit Next Page]
Appendix A: Chronology of Judgments Entered and
Funds Collected

Case 1:07-cv-04672-NGG-PK Document 261-1 Filed 09/11/18 Page 1 of 1 PageID #: 3134

APPENDIX A - Chronology of Judgments Entered and Funds Collected

A. Date(s)
1

9/19/2012
1(a)
1(b)

B. Description

C. Total
Judgment

DE 180 Judgment

$ 633,851.76

D. Amt. Collected
(pg #)

DE 228

11/23/2012

Amount Collected

(83) $ 619,071,76

3

1/2/2013

Amount Collected

(95)

4

1/29-6/17/2013

5

10/22/2013

6

10/25/2013

7

1/8/2014

8

1/24-2/10/2014

9

Checks issued to Plaintiffs*
DE 214 Judgment

1/31-2/28/2015

11

4/15/2015

12

8/5/2014

13

8/21/2015

$ 619,071,76

14,780.00

633,851.76
$ (440,933.83)

192,917.93

(130,214.46)

62,703.47

$ 256,678.46

Add'l damages to Y.Robinson: $118,512.00
Add'l damages to J. Burke Hylton: $6,512.00
Damages to G. Recort: $1,140.00
Damages to R. Charkar Singh: $ 300.00
Attorneys' fees and costs: $130,214.46

Check to attorneys (DE 237-1)
Amount Collected

(61)

256,678.46

Total checks to Plaintiffs*
Adjustment for uncashed Ogunjana check

10

F. Escrow
Balance

Damages to Gayle: $14,780.00
Damages to other plaintiffs: $619,071.76

2

5(a)
5(b)
5(c)
5(d)
5(e)

E. Amount(s)
Disbursed*

Total checks to Plaintiffs*
DE 226 Judgment (fees and costs)

$

319,381.93
(288,722.93)

30,659.00

653.00

31,312.00

(17,114.96)

14,197.04

41,429.17

Amount Collected

(74)

41,429.17

Check to attorneys (DE 237-1)

TOTAL AMOUNT COLLECTED

55 626.21
(41,429.17)

$ 14,197.04

$ 931,959.39

Total Amount disbursed to plaintiffs:*
$ 746,118.72 (not including uncashed check to M. Ogunjana)
Unpaid amounts to plaintiffs in escrow:
14,197.04
Total Judgments to Plaintiffs: $ 760,315.76
Total Judgments paid to attorneys:
171,643.63
Total amount Collected : $ 931,959.39
* See Appendix B

App. 42
[See Foldout Exhibit Next Page]
Appendix B: Checks Issued to Plaintiffs (by year)

Appendix B:Document
Checks261-2
Issued
to Plaintiffs
Case 1:07-cv-04672-NGG-PK
Filed
09/11/18 (by
Pageyear)
1 of 1 PageID #: 3135
JUDGMENTS
9/12/2012 10/22/2013
A
B

NAME
Sussan

Ajiboye

$

1,380.00 $ -

Sulaiman

Ali-El

$

14,211.90 $ -

Genevieve
Margarite
Jane
Ramdeo
Carol
Mary
Anne
Niseekah
Willie
Nathalie
Claudia
Michelle
Alexander
Lucille
Anthony
Marlene
Henrick
Brenda
Annabel
Paulette

Barbot
Bhola
Burke Hylton
Charkar
Clunie
Davis
DePasquale
Evans
Evans
Francois
Gayle
Girvel
Gumbs
Hamilton
Headlam
Hyman
Ledain
Lewis
Llewellyn
Miller

$
640.00 $ 16650
$
585.00 $ 16649
$ 137,320.00 $ 6,512.00 16667
$
300.00
$
3,280.00 $ 16661
$
7,677.22 $ $ 12,946.50 $ 16651
$
122.50 $ $ 33,120.00 $ 16744
$
1,148.76 $ $ 14,780.00 $ 16647-48
$
1,920.00 $ 16652
$
490.00 $ 16653
$
980.00 $ 16654
$ 13,668.28 $ $
5,292.00 $ 16655
$ 33,268.00 $ 16662
$
120.00 $ $
420.00 $ 16656
$
2,380.00 $ 16657

Catherine
Lindon
Edith
Martha
Merika
Merlyn
Christa
Bendy
Soucianne
Getty
Patricia
Yolanda
Maud
Bernice
Lena
Jacqueline

Modeste
Morrison
Mukandi
Ogunjana
Paris
Patterson
Pierre
PierreQuerette
Recourt
Robinson
Robinson
Samedi
Sankar
Thompson
Ward

$
80.00 $ $ 45,921.00 $ $
4,062.66 $ $
653.00 $ $ 54,042.00 $ $
98.00 $ $
390.00 $ $ 11,450.04 $ $ 37,449.86 $ $$ 1,140.00
$ 16,080.00 $ $ 92,352.00 $ 118,512.00
$ 37,082.04 $ $ 17,488.00 $ $ 28,765.50 $ $
2,187.50 $ $ 633,851.76

$126,464.00

CHECKS ISSUED IN 2013
Amt.
Issued
Negotiated
D
E
F

No.
C
16762

$

8,408.92

3/5/2013

CHECKS ISSUED IN 2014
Amt.
Issued
Negotiated
H
I
J

No.
G

3/7/2013

No.
K

CHECKS ISSUED AFTER 2014
Amt.
Issued Negotiated
L
M
N

20374NYSDTF

$
480.00 1/29/2013
$
438.75 1/29/2013
$ 102,990.00 1/29/2013

2/4/2013 17624 $
160.00
2/27/2013 17625 $
146.25
2/4/2013 17626 $ 40,842.00

1/27/2014
1/27/2014
1/27/2014

1/31/2014
2/11/2014
1/31/2014

$

2,460.00 1/29/2013

2/27/2013 17627 $

820.00

1/27/2014

2/21/2014

$

9,709.87 1/29/2013

2/14/2013 17628 $

3,236.63

1/27/2014

2/24/2014

4/10/2013 17629 $

8,280.00

1/27/2014

2/3/2014

$

24,840.00

3/1/2013

18788

$

18578

$

$1,380.00

14,211.90

$0.00

$
640.00
$
585.00
$ 143,832.00
$ 300.00 1/23/2015 1/28/2015 $
300.00
$
3,280.00
7,677.22 6/2/2015
6/9/2015 $ 7,677.22
$ 12,946.50

$0.00
$0.00
$0.00
$0.00
$0.00
$0.00
$0.00
$122.50
$0.00
$0.00
$0.00
$0.00
$0.00
$0.00
$0.00
$0.00
$0.00
$120.00
$0.00
$0.00

5/10/2017 $

2/24/2014
1/31/2014*
2/4/2014
2/10/2014
1/27/2014
3/19/2014
1/30/2014*

$
$
$
$
$
$
$

33,120.00
$
14,780.00
1,920.00
490.00
980.00
13,668.28
5,292.00
33,268.00

105.00 1/27/2014
595.00 1/27/2014

2/10/2014
1/29/2014

$
$

420.00
2,380.00

6/19/2013 17637 $ 11,480.25 1/27/2014
17671 $
4,062.66 2/10/2014
17638 $
653.00 1/27/2014
2/7/2013 17639 $ 13,510.50 1/27/2014
5/1/2013 17640 $
24.50 1/27/2014

1/30/2014
2/18/2014

$ 45,921.00
$ 4,062.66
$
0.00 *
$ 54,042.00
$
98.00

2/9/2013 17641
17642
4/8/2013 17643
2/4/2013 17644
2/4/2013 17645
1/30/2013 17646
2/4/2013 17647

2/4/2014
2/4/2014*
2/28/2014
2/3/2014
2/3/2014
1/30/2014
2/4/2014

$
$
$
$

11,085.00 1/28/2013 1/29, 2/6/13
1,440.00 1/29/2013
3/1/2013
367.50 1/29/2013
2/4/2013
735.00 1/29/2013
2/1/2013

$
$

3,969.00
24,951.00

1/29/2013
1/29/2013

$
$

315.00
1,785.00

1/29/2013
1/29/2013

17058

$

34,440.75

6/17/2013

16658
16829

$
$

40,531.50
73.50

1/29/2013
4/1/2013

16659

$

28,087.39

1/29/2013

16810
16665
16666
16663
16660

$
$
$
$
$

12,060.00
69,264.00
27,811.53
13,116.00
21,574.12

3/20/2013
1/29/2013
1/29/2013
1/29/2013
1/29/2013

17622
17630
17631
17632
17621
1/31/2013 17634
2/6/2013 17633

$ 3,695.00 1/27/2014
$
480.00 1/27/2014
$
122.50 1/27/2014
$
245.00 1/27/2014
$ 13,668.28 1/24/2014
$ 1,323.00 1/27/2014
$ 8,317.00 1/27/2014

2/4/2013 17635 $
2/5/2013
17636 $

$
9,362.47 1/27/2014
$ 1,140.00 1/27/2014
$
4,020.00 1/27/2014
$ 141,600.00 1/27/2014
$
9,270.51 1/27/2014
$
4,372.00 1/27/2014
$
7,191.38 1/27/2014

$

$ 288,722.93

1,148.76

3/23/2015

3/30/2015

3/4/2014
2/5/2014

18579
$ 440,933.83

Amount
Unpaid
P
0.00

$ 5,802.98 5/8/2017

18469

Total
Paid
O

$ 2,186.00
$ 17,114.96

3/21/2015 4/9/2015

$80.00
$0.00
$0.00
$ 653.00*
$0.00
$0.00
$ 390.00
$11,450.04
$ 37,449.86
$0.00
$ 1,140.00
$0.00
$ 16,080.00
$0.00
$ 210,864.00
$0.00
$ 37,082.04
$0.00
$ 17,488.00
$0.00
$ 28,765.50
$0.00
$ 2,186.00
$1.50
$ 746,119.72 $ 14,197.04*

App. 43

APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
12-4764-cv
[Filed December 8, 2014]
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER JANUARY
1, 2007, IS PERMITTED AND IS GOVERNED BY
FEDERAL RULE OF APPELLATE PROCEDURE 32.1
AND THIS COURT’S LOCAL RULE 32.1.1. WHEN
CITING A SUMMARY ORDER IN A DOCUMENT
FILED WITH THIS COURT, A PARTY MUST CITE
EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC DATABASE (WITH THE NOTATION
“SUMMARY ORDER”). A PARTY CITING A
SUMMARY ORDER MUST SERVE A COPY OF IT ON
ANY PARTY NOT REPRESENTED BY COUNSEL.
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 8th day of December,
two thousand fourteen.

App. 44
Present:

ROBERT A. KATZMANN,
Chief Judge,
RALPH K. WINTER,
Circuit Judge,
VICTOR MARRERO
District Judge.*
____________________________________________
CLAUDIA GAYLE, Individually, On
Behalf of All Others Similarly
Situated and as Class
Representative, ALINE ANTENOR,
ANNE C. DEPASQUALE, ANNABEL
LLEWELLYN-HENRY, EVA MYERSGRANGER, LINDON MORRISON, NATALIE
RODRIGUEZ, JACQUELINE WARD,
DUPONT BAYAS, CAROL P. CLUNIE,
RAMDEO CHANKAR SINGH,
CHRISTALINE PIERRE,LEMONIA SMITH,
BARBARA TULL, HENRICK LEDAIN,
MERIKA PARIS, EDITH MUKARDI,
MARTHA OGUN JANCE, MERLYN
PATTERSON, ALEXANDER GUMBS,
SEROJNIE BHOG, GENEVIEVE BARBOT,
CAROLE MOORE, RAQUEL FRANCIS,
MARIE MICHELLE GERVIL, NADETTE
MILLER, PAULETTE MILLER, BENDY
PIERRE-JOSEPH, ROSE-MARIE
ZEPHIRIN, SULAIMAN ALI-EL, DEBBIE
ANN BROMFIELD, REBECCA PILE, MARIA
GARCIA SHANDS, ANGELA COLLINS,
BRENDA LEWIS, SOUCIANNE QUERETTE,
SUSSAN AJIBOYE, JANE BURKE HYLTON,
WILLIE EVANS, PAULINE GRAY,
EVIARNA TOUSSAINT, GERALDINE
JOAZARD, NISEEKAH Y. EVANS, GETTY
*

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Hon. Victor Marrero, United States District Judge for the
Southern District of New York, sitting by designation.

App. 45
ROCOURT, CATHERINE MODESTE,
MARGUERITE L. BHOLA, YOLANDA
ROBINSON, KARLIFA SMALL, JOANANN R. JOHNSON, LENA THOMPSON,
MARY A. DAVIS, NATHALIE FRANCOIS,
ANTHONY HEADLAM, DAVID EDWARD
LEVY, MAUD SAMEDI, BERNICE
SANKAR, MARLENE HYMAN,
Plaintiffs-Appellees,
v.
HARRY’S NURSES REGISTRY, INC.,
HARRY DORVILIEN,
Defendants-Appellants.**
___________________________________

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

For Plaintiffs-Appellees:
JONATHAN ADAM BERNSTEIN,
Levy Davis & Maher LLP,
New York, NY
For Defendants-Appellants:
RAYMOND NARDO, Mineola, NY
(Mitchell L. Perry, White Plains, NY,
on the brief)
Appeal from the United States District Court for the
Eastern District of New York (Garaufis, J. and Sifton,
J.).

**

The Clerk of Court is directed to amend the caption.

App. 46
ON CONSIDERATION WHEREOF, it is hereby
ORDERED, ADJUDGED, and DECREED that the
orders and judgment of the district court be and hereby
are AFFIRMED.
Defendants-Appellants Harry’s Nurses Registry,
Inc. (“Harry’s”) and Harry Dorvilien appeal from a
September 18, 2012 judgment of the United States
District Court for the Eastern District of New York
(Garaufis, J.), which followed four orders (Garaufis, J.
and Sifton, J.) that culminated in a grant of summary
judgment to the plaintiff class on their unpaid overtime
claims under the Fair Labor Standards Act (“FLSA”),
29 U.S.C. §§ 201–219. A fifth order (Garaufis, J.)
adopted in full a magistrate judge’s report and
recommendation to correct the judgment and grant
attorneys’ fees, yielding an amended judgment dated
October 16, 2013. We assume the parties’ familiarity
with the underlying facts, procedural history, and
issues on appeal.
We review de novo a district court’s grant of
summary judgment, resolving all ambiguities and
drawing all reasonable inferences in favor of the nonmoving party. See Wrobel v. Cnty. of Erie, 692 F.3d 22,
27 (2d Cir. 2012). Summary judgment is appropriate
only where “the movant shows that there is no genuine
dispute as to any material fact and the movant is
entitled to judgment as a matter of law.” Fed. R. Civ. P.
56(a); see also Celotex Corp. v. Catrett, 477 U.S. 317,
322 (1986).
The appellants’ principal contention is that the
district court erred in determining that the nurses
listed and placed by Harry’s were employees rather

App. 47
than independent contractors. We find that the district
court was correct. Whether a worker is treated as an
employee or an independent contractor under FLSA is
determined not by contractual formalism but by
“economic realities.” See Rutherford Food Corp. v.
McComb, 331 U.S. 722, 727 (1947) (internal quotation
marks omitted). Our analysis of the relationship turns
on the economic-reality test, which weighs
(1) the degree of control exercised by the employer
over the workers, (2) the workers’ opportunity for
profit or loss and their investment in the business,
(3) the degree of skill and independent initiative
required to perform the work, (4) the permanence or
duration of the working relationship, and (5) the
extent to which the work is an integral part of the
employer’s business.
Brock v. Superior Care, Inc., 840 F.2d 1054, 1058–59
(2d Cir. 1988). “No one of these factors is dispositive;
rather, the test is based on a totality of the
circumstances.” Id. at 1059.
The relationship between Harry’s and the nurses
who are plaintiffs here is nearly indistinguishable from
the relationship between Superior Care and the
plaintiffs in Brock, whom we held to be employees
under FLSA. See id. at 1057–58. The district court here
explored the first factor at length, finding that Harry’s
exercises significant control over the nurses, both
economically and professionally. We agree. Indicia of
economic control present here include Harry’s policies
that: prohibit a nurse from contracting independently
with placements, although its nurses may be listed
with other agencies; prohibit a nurse from

App. 48
subcontracting a shift to another nurse; prohibit a
nurse from taking a partial shift, although a nurse may
decline a whole shift; and prohibit a nurse who is
unilaterally terminated from collecting contract
damages, expectation damages, or liquidated damages,
permitting only unpaid wages as damages.
Furthermore, the hourly rate paid is not negotiated but
is fixed by Harry’s. Indicia of professional control
present here include: the work of Harry’s nursing
director and nursing supervisors, who monitor the
nurses’ daily phone calls reporting to shifts, collect
documents and conduct on-site training four to five
hours each month, communicate with doctors to ensure
that their prescribed care is being carried out, and
handle emergencies; the ability of a nursing supervisor
to require a nurse to attend continuing education to
maintain their licenses; an in-service manual that
nurses had to certify having read and understood;
training by Harry’s covering HIV confidentiality,
ventilators, oxygen, and other medical subjects; and a
requirement that each shift include a comprehensive
assessment of the patient in the form “progress notes,”
which nurses had to submit to get paid.
Another critical factor is that the nurses have no
opportunity for profit or loss whatsoever; they earn
only an hourly wage for their labor and have no
downside exposure. The nurses have no business cards,
advertisements, or incorporated vehicle for contracting
with Harry’s, and they are paid promptly regardless of
whether the insurance carrier pays Harry’s promptly.
We agree with the district court that this second factor
weighs heavily in favor of the nurses’ status as
employees. That the nurses are skilled workers in a

App. 49
transient workforce “reflects the nature of their
profession and not their success in marketing their
skills independently.” Id. at 1061. Finally, the
appellants cavil that the nurses are not integral to
Harry’s Nurses Registry, notwithstanding that
“Nurses” is—literally—Harry’s middle name. But
placing nurses accounts for Harry’s only income; the
nurses are not just an integral part but the sine qua
non of Harry’s business. Considering all these
circumstances, we agree with the district court that
these nurses are, as a matter of economic reality,
employees and not independent contractors of Harry’s.
The remainder of the appellants’ arguments merit
less discussion. First, Harry’s again fights its name by
arguing that its nurses were not nurses but instead
home health aides and were therefore unprotected by
FLSA because of its exemption for domestic
companionship workers. See Long Island Care at
Home, Ltd. v. Coke, 551 U.S. 158, 161–62 (2007).
Having not been raised in the district court, this
affirmative defense is waived on appeal, see Saks v.
Franklin Covey Co., 316 F.3d 337, 350 (2d Cir. 2003),
but it is also wrong: The plaintiffs are all registered
nurses (RNs) or licensed practical nurses (LPNs) who
do not perform a “companionship service” within the
meaning of the exemption at issue. See 29 C.F.R.
§ 552.6 (“The term ‘companionship services’ does not
include services relating to the care and protection of
the aged or infirm which require and are performed by
trained personnel, such as a registered or practical
nurse.”). A related argument advanced by the
appellants is that the nurses are not covered by FLSA
because they do not meet the threshold requirement of

App. 50
having performed overtime “work,” having often left
jobs at hospitals caring for 40 patients to now care only
for one patient in a home, a “97.5% reduction in task
responsibility.” Appellants’ Br. 43. This argument does
violence to the dictionary definition of work as well as
to the dignity of nurses, and we reject it emphatically.
Second, the appellants misunderstand FLSA’s
liquidated damages provision, which presumptively
awards “an additional equal amount as liquidated
damages,” 29 U.S.C. § 216(b), but provides for an
affirmative defense in the event that a liable defendant
had a reasonable, good-faith belief of compliance. See
Brock v. Wilamowsky, 833 F.2d 11, 19 (2d Cir. 1987)
(“Double damages are the norm, single damages the
exception.” (internal quotation marks and alteration
omitted)). The defendants failed to carry their
“difficult” burden to prove this affirmative defense; the
nurses’ failure to argue that defendants willfully
violated FLSA has no bearing on the entirely proper
liquidated-damages award. Id.
Third, the appellants suggest that the class of
nurses should be decertified because its members lack
commonality. This argument contains no citation to the
record, and it is unpersuasive in any event. The district
court found commonality among the class based on
affidavits from some but not all of its members, the
kind of “sensible” approach that we endorsed in Myers
v. Hertz Corp., 624 F.3d 537, 554–55 (2d Cir. 2010).
Using affidavits from five of the thirty-five class
members whose time records demonstrated overtime
violations was well within the bounds of reason and
practicality. See Reich v. S. New England Telecomms.

App. 51
Corp., 121 F.3d 58, 67 (2d Cir. 1997). The defendants
took no discovery directed at commonality, which
accounts for the appellants’ lack of citations to the
record and leaves us without a basis on which to
disturb the district court’s initial finding of
commonality.
The appellants’ fourth subsidiary argument is that
the New York State Public Health Law should govern
the outcome because Harry’s is governed by Article 36
whereas Superior Care was governed by Article 28. But
state law does not trump FLSA, which permits states
and localities to exceed its protections with higher
minimum wages or lower maximum workweeks but not
to weaken its protections in the other direction. See 29
U.S.C. § 218(a).
A fifth and final quibble that we discuss arose in the
appellants’ reply brief concerning one plaintiff, Willie
Evans, who had lodged an unsuccessful complaint
alleging overtime violations with the New York State
Department of Labor. This argument was not
adequately presented in the appellants’ opening brief,
which cited Evans as an example but made no
argument concerning collateral estoppel. See Norton v.
Sam’s Club, 145 F.3d 114, 117 (2d Cir. 1998). And its
merits fail in any event—an investigator declined to
pursue Evans’s complaint, but that is far different from
the full adjudication on the merits required for
collateral estoppel. See Astoria Fed. Sav. & Loan Ass’n
v. Solimino, 501 U.S. 104, 106 (1991).
We have considered the appellants’ remaining
arguments and find them to be without merit. For the

App. 52
reasons stated herein, the judgment of the district
court is AFFIRMED.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

